Department of Health and Human Services
                   OFFICE OF
              INSPECTOR GENERAL


   NEW YORK STATE MADE
   UNALLOWABLE MEDICAID
  MANAGED CARE PAYMENTS
 FOR BENEFICIARIES ASSIGNED
     MULTIPLE MEDICAID
  IDENTIFICATION NUMBERS

  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                   Gloria L. Jarmon
                                                Deputy Inspector General

                                                        April 2013
                                                      A-02-11-01006
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                      EXECUTIVE SUMMARY

 New York State claimed approximately $7.3 million in Federal Medicaid reimbursement for
 managed care payments that were unallowable.

WHY WE DID THIS REVIEW

We identified a potential vulnerability in New York State’s Medicaid managed care program.
Specifically, some beneficiaries enrolled in Medicaid managed care had more than one Medicaid
identification number. As a result, Medicaid managed care organizations (MCO) received
duplicate monthly Medicaid payments for these beneficiaries.

Our objective was to determine whether the New York State Department of Health (Health
Department) claimed Federal Medicaid reimbursement for managed care payments in
compliance with Federal requirements.

BACKGROUND

Federal law authorizes payments to States for eligible Medicaid beneficiaries enrolled in an
MCO and prohibits payments to MCOs for beneficiaries whose Medicaid eligibility has not been
properly determined. The Health Department electronically maintains eligibility information in
its Welfare Management System, which operates as two separate systems—one for beneficiaries
residing in New York City and one for beneficiaries residing elsewhere in New York State.

An individual requesting Medicaid services (applicant) in a State must provide his or her Social
Security number (SSN) to the State. Excluded from this requirement are pregnant women,
newborns born to women receiving Medicaid, and individuals who qualify for emergency
medical assistance. That State must then verify with the Social Security Administration that the
SSN was furnished to the applicant and determine whether any others were issued to that
individual. In addition, the State must include in each applicant’s case file facts to support the
Medicaid eligibility determination.

HOW WE CONDUCTED THIS REVIEW

We limited our review to certain Medicaid managed care payments the Health Department made
to different MCOs for the same beneficiary. From the 24,298 beneficiary matches with
payments totaling approximately $64 million ($32 million Federal share) that the Health
Department claimed for the period January, 1, 2005, through April 30, 2010, we reviewed a
random sample of 150 beneficiary matches. For purposes of this review, we defined a
beneficiary match to be that either (1) more than one Medicaid identification number was
associated with the same SSN or (2) no SSN was provided but select personal information
(i.e., first four characters of the first name, last name, date of birth, and sex) was identical for
more than one Medicaid identification number.




Medicaid Managed Care Payments for Beneficiaries With Multiple Identification Numbers (A-02-11-01006)   i
WHAT WE FOUND

The Health Department did not always claim Federal Medicaid reimbursement for managed care
payments in compliance with Federal requirements. Of the 150 beneficiary matches in our
random sample, the Health Department complied with Federal requirements for 43 but not for
the remaining 107. These deficiencies occurred because the Health Department operated two
eligibility systems that did not identify potential beneficiary matches between the systems. In
addition, local departments of social services did not (1) use all available resources within the
systems to ensure that beneficiaries were not issued multiple Medicaid identification numbers,
(2) ensure that applicants provided valid SSNs when required, and (3) maintain documentation to
support eligibility determinations.

On the basis of our sample results, we estimated that the Health Department improperly claimed
at least $7,324,452 in Federal Medicaid reimbursement for managed care payments that did not
comply with Federal requirements. In addition, we estimated that the Health Department
claimed $546,296 in Federal Medicaid reimbursement for managed care payments where
applicants did not provide a valid SSN or there was no case file documentation to support the
eligibility determination.

WHAT WE RECOMMEND

We recommend that the Health Department:

    •   refund $7,324,452 to the Federal Government;

    •   use all available resources to ensure that no beneficiary is issued multiple Medicaid
        identification numbers or develop one eligibility system that could be used to determine
        whether applicants are enrolled in any medical or public assistance program throughout
        New York State; and

    •   ensure that it complies with certain Federal requirements by requiring local departments
        of social services to ensure that applicants provide valid SSNs when required and to
        maintain documentation to support eligibility determinations, which could have resulted
        in additional savings of $546,296 to the Medicaid program.

HEALTH DEPARTMENT COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the Health Department partially concurred with our first
recommendation and generally concurred with our second and third recommendations. The
Health Department stated that cases for which the applicant did not provide a valid SSN or the
case record was not provided represent “eligibility errors” and that Federal laws and regulations
do not allow for the recovery of payments caused by these errors. The Health Department also
disputed a portion of the remaining recommended disallowance because the associated
unallowable claims duplicated recoveries that its Office of the Medicaid Inspector General was


Medicaid Managed Care Payments for Beneficiaries With Multiple Identification Numbers (A-02-11-01006)   ii
in the process of making. Finally, the Health Department described steps that it has taken or
planned to take to ensure that no beneficiary is issued multiple Medicaid identification numbers.

After reviewing the Health Department’s comments on our draft report, we maintain that our
findings are valid. However, we revised our recommended recovery to exclude cases for which
the applicant did not provide a valid SSN or the case record was not provided. We also revised
our third recommendation to indicate potential cost savings if the Health Department ensured
that applicants provided valid SSNs and that eligibility determinations were adequately
documented.




Medicaid Managed Care Payments for Beneficiaries With Multiple Identification Numbers (A-02-11-01006)   iii
                                                    TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION......................................................................................................................1

         Why We Did This Review ...............................................................................................1

         Objective...........................................................................................................................1

         Background ......................................................................................................................1
               The Medicaid Program ..........................................................................................1
               New York State’s Medicaid Managed Care Program ...........................................1

         How We Conducted This Review...................................................................................2

FINDINGS ..................................................................................................................................3

         Beneficiaries Had More Than One Medicaid Identification Number ........................4

         Medicaid Eligibility Errors.............................................................................................5
               Beneficiaries Did Not Have a Valid Social Security Number ..............................5
               Case Records Not Provided ...................................................................................5

         Conclusion ........................................................................................................................6

RECOMMENDATIONS...........................................................................................................6

HEALTH DEPARTMENT COMMENTS ..............................................................................6

OFFICE OF INSPECTOR GENERAL RESPONSE.............................................................7

APPENDIXES

           A: Audit Scope and Methodology ................................................................................8

           B: Statistical Sampling Methodology ..........................................................................10

           C: Sample Results and Estimates ................................................................................12

           D: Health Department Comments ...............................................................................14




Medicaid Managed Care Payments for Beneficiaries With Multiple Identification Numbers (A-02-11-01006)                                            iv
                                            INTRODUCTION

WHY WE DID THIS REVIEW

We identified a potential vulnerability in New York State’s Medicaid managed care program.
Specifically, some beneficiaries enrolled in Medicaid managed care had more than one Medicaid
identification number. As a result, Medicaid managed care organizations (MCO) received
duplicate monthly Medicaid payments for these beneficiaries.

OBJECTIVE

Our objective was to determine whether the New York State Department of Health (Health
Department) claimed Federal Medicaid reimbursement for managed care payments in
compliance with Federal requirements.

BACKGROUND

The Medicaid Program

The Medicaid program provides medical assistance to low income individuals and individuals
with disabilities. The Federal and State Governments jointly fund and administer the Medicaid
program. At the Federal level, the Centers for Medicare & Medicaid Services (CMS)
administers the program. Each State administers its Medicaid program in accordance with a
CMS-approved State plan. The State plan establishes which services the Medicaid program will
cover. Although a State has considerable flexibility in designing and operating its Medicaid
program, it must comply with Federal requirements.

New York State’s Medicaid Managed Care Program

In New York State, the Health Department administers the Medicaid program. Local
departments of social services (local district) are responsible for determining whether individuals
applying for Medicaid (applicants) meet eligibility requirements and ensuring that the applicants
have only one active Medicaid identification number. Each county is considered its own local
district, except the five counties that make up New York City, which are considered a single
district.

Under its Medicaid managed care program, the Health Department pays MCOs a monthly fee to
ensure that an enrolled beneficiary has access to a comprehensive range of medical services. 1




1
 For those beneficiaries not enrolled in the Medicaid managed care program, the Health Department pays Medicaid
providers on a fee-for-service basis for every Medicaid-eligible service provided to a beneficiary.


Medicaid Managed Care Payments for Beneficiaries With Multiple Identification Numbers (A-02-11-01006)         1
Beneficiary Enrollment

The Health Department electronically maintains eligibility information, including beneficiaries’
Medicaid identification numbers, in its Welfare Management System (WMS). 2 The WMS
operates as two systems—one for beneficiaries residing in New York City (downstate WMS)
and one for beneficiaries residing elsewhere in New York State (upstate WMS). Health
Department guidance states that the local district is to check its WMS to determine if an
applicant is receiving medical or public assistance benefits and has been issued a Medicaid
identification number. 3

Federal Eligibility Requirements

Federal law prohibits payments to MCOs for a beneficiary whose eligibility was not properly
determined 4 and requires an applicant to provide his or her SSN to the State. 5, 6 The State must
then verify that the Social Security Administration furnished the SSN to the applicant and
determine whether it furnished any other SSNs to that individual. 7 In addition, each State must
include in each applicant’s case file facts to support the Medicaid eligibility determination. 8

HOW WE CONDUCTED THIS REVIEW

We limited our review to certain Medicaid managed care payments the Health Department made
to different MCOs for the same beneficiary. 9 From the 24,298 beneficiary matches with
payments totaling approximately $64 million ($32 million Federal share) that the Health
Department claimed for the period January 1, 2005, through April 30, 2010, we reviewed a

2
 The WMS maintains and processes information relating to individuals who have been determined eligible for
benefits under all assistance programs, including Medicaid.
3
 The databases for both the upstate and downstate WMS compare the name, date of birth, Social Security number
(SSN), and sex of an applicant to all other beneficiaries within the same database and produce a report of individuals
with similar SSNs and/or names as the applicant. According to Health Department guidance, local district
employees are expected to review these reports to determine whether an individual applying for Medicaid is the
same as another individual on the report with an existing Medicaid identification number.
4
    The Social Security Act, section 1903(m)(2)(A)(iii).
5
 To be eligible for Medicaid, an individual requesting services must provide his or her SSN to the State (42 CFR
§ 435.910(a)).
6
  States are required to provide mandatory coverage to pregnant women, newborns born to women receiving
Medicaid, and individuals who qualify for emergency medical assistance. These applicants are excluded from this
requirement (42 CFR pt. 435).
7
    42 CFR § 435.910(g).
8
    42 CFR § 435.913(a).
9
 We excluded managed care payments the Health Department made to the same MCO for the same beneficiary
under different Medicaid identification numbers for the same date of service from our review because these
payments are being reviewed by the New York State Office of the Medicaid Inspector General (OMIG).

Medicaid Managed Care Payments for Beneficiaries With Multiple Identification Numbers (A-02-11-01006)               2
random sample of 150 beneficiary matches. For purposes of this review, we defined a
beneficiary match to be that either (1) more than one Medicaid identification number was
associated with the same SSN or (2) no SSN was provided but select personal information
(i.e., first four characters of the first name, last name, date of birth, and sex) was identical for
more than one Medicaid identification number.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology, Appendix B contains our
statistical sampling methodology, and Appendix C contains our sample results and estimates.

                                               FINDINGS

The Health Department did not always claim Federal Medicaid reimbursement for managed care
payments in compliance with Federal requirements. Of the 150 beneficiary matches in our
random sample, the Health Department complied with Federal requirements for 43 but not for
the remaining 107. Of these 107 beneficiary matches, 12 contained more than 1 deficiency:

        •   For 98 beneficiary matches, the associated beneficiary had more than one Medicaid
            identification number.

        •   For 16 beneficiary matches, the local district issued a Medicaid identification number
            to an applicant who did not have a valid SSN and was required to have one.

        •   For seven beneficiary matches, there was no case record for at least one of the
            Medicaid identification numbers.

These deficiencies occurred because the Health Department operated two eligibility systems that
did not identify potential beneficiary matches between the systems. In addition, local districts
did not (1) use all available resources within WMS to ensure that beneficiaries were not issued
multiple Medicaid identification numbers, (2) ensure that applicants provided valid SSNs when
required, and (3) maintain documentation to support eligibility determinations.

On the basis of our sample results, we estimated that the Health Department improperly claimed
at least $7,324,452 in Federal Medicaid reimbursement for managed care payments that did not
comply with Federal requirements. In addition, we estimated that the Health Department
claimed $546,296 in Federal Medicaid reimbursement for managed care payments where
applicants did not provide a valid SSN or there was no case file documentation to support the
eligibility determination (eligibility errors). For the beneficiary matches with eligibility errors,
we are not recommending recovery because under Federal laws and regulations, a disallowance
of Federal payments for Medicaid eligibility errors can occur only if the errors are detected
through a State’s Medicaid eligibility quality control program.

Medicaid Managed Care Payments for Beneficiaries With Multiple Identification Numbers (A-02-11-01006)   3
BENEFICIARIES HAD MORE THAN ONE
MEDICAID IDENTIFICATION NUMBER

Sections 2(d)(2)(A) and (B) of the Improper Payments Information Act of 2002 define an
improper payment as any payment that should not have been made, including any duplicate
payment. 10

For 98 of the 150 beneficiary matches that we sampled, the Health Department improperly
claimed Federal Medicaid reimbursement for managed care payments made on behalf of
beneficiaries issued multiple Medicaid identification numbers. Specifically, the Health
Department made managed care payments to different MCOs for the same beneficiary under
different Medicaid identification numbers for the same date of service. Specifically:

       •   Beneficiaries were issued multiple Medicaid identification numbers by the same
           local district offices. For 59 beneficiary matches, case records indicated that
           beneficiaries applied multiple times for medical and/or public assistance benefits and
           were issued more than 1 Medicaid identification number by the same local district office.

       •   Beneficiaries were issued multiple Medicaid identification numbers by different
           local district offices. For 24 beneficiary matches, case records indicated that
           beneficiaries moved to another county in New York State, reapplied for Medicaid
           benefits at the new county’s local district office, and were issued a new Medicaid
           identification number, but the old local district office had not closed the Medicaid
           identification number that it had issued.

       •   Newborns were issued multiple Medicaid identification numbers. For 15 beneficiary
           matches, case records indicated that a second Medicaid identification number was issued
           to a newborn even though the child already had an active Medicaid identification
           number. 11

The improper payments made on behalf of these beneficiaries occurred because local districts
did not use all available resources within both the downstate WMS and the upstate WMS to
determine if an applicant already had a Medicaid identification number. 12 Health Department
guidance states that local district employees should review a WMS-generated report on potential
beneficiary matches to determine if an applicant is receiving medical or public assistance
benefits and has been issued a Medicaid identification number. These reports, however, do not
identify matches between the downstate WMS and upstate WMS. Local district employees have
the ability to manually search both systems to determine if an applicant in their district is

10
     The Improper Payments Information Act is codified at 31 USC § 3321 note.
11
     Both the Health Department and local districts may assign a Medicaid identification number to a newborn.
12
  We reviewed beneficiaries’ encounter data (if any) to determine which managed care payments were proper. If a
beneficiary had a medical encounter during a month in which the Health Department paid managed care payments to
two MCOs on the beneficiary’s behalf, we allowed the managed care payment to the MCO that paid for the medical
encounter.

Medicaid Managed Care Payments for Beneficiaries With Multiple Identification Numbers (A-02-11-01006)           4
currently enrolled in any medical or public assistance program or whether a newborn already has
a Medicaid identification number. However, local district employees did not effectively use
these tools. In addition, some beneficiary matches were not identified by either the WMS-
generated report or the manual WMS searches because the local district employees did not
always correctly enter applicants’ identifying information into the WMS.

MEDICAID ELIGIBILITY ERRORS

Beneficiaries Did Not Have a Valid Social Security Number

Section 1903(m)(2)(A)(iii) of the Social Security Act requires that MCO services be provided for
the benefit of eligible individuals and prohibits Federal payments to States for MCO services
when an individual’s eligibility was not properly determined. Federal regulations (42 CFR
§ 435.910) require, as a condition of eligibility, that each individual requesting Medicaid services
furnish his or her SSN to the State. The State must contact the Social Security Administration to
verify that the number furnished was the correct number and the only one issued to the
individual.

For 16 of the 150 beneficiary matches that we sampled, the Health Department made managed
care payments on behalf of beneficiaries who did not have a valid SSN. Specifically:

     •   Beneficiaries did not furnish a Social Security Number. For 13 beneficiary matches,
         beneficiaries did not furnish an SSN and were required to for at least 1 Medicaid
         identification number.

     •   Beneficiaries furnished an invalid Social Security Number. For three beneficiary
         matches, beneficiaries furnished an SSN that did not belong to them for at least one
         Medicaid identification number.

Case Records Not Provided

Federal regulations (42 CFR § 435.913(a)) require the State to include facts to support the State’s
decision on individuals’ Medicaid applications in each applicant’s case file.

For 7 of the 150 beneficiary matches that we sampled, the Health Department made managed
care payments on behalf of beneficiaries for whom there was no documentation to support the
local districts’ eligibility determinations. 13




13
  For five beneficiary matches, there was no case record for one of the Medicaid identification numbers, and for two
beneficiary matches, there was no case record for either of the Medicaid identification numbers.

Medicaid Managed Care Payments for Beneficiaries With Multiple Identification Numbers (A-02-11-01006)             5
CONCLUSION

On the basis of our sample results, we estimated that the Health Department improperly claimed
at least $7,324,452 in Federal Medicaid reimbursement for managed care payments that did not
comply with Federal requirements. In addition, we estimated that the Health Department
claimed $546,296 in Federal Medicaid reimbursement for managed care payments with
eligibility errors. For the beneficiary matches with eligibility errors, we are not recommending
recovery because under Federal laws and regulations, a disallowance of Federal payments for
Medicaid eligibility errors can occur only if the errors are detected through a State’s Medicaid
eligibility quality control program.

The Health Department operated two eligibility systems that did not identify potential
beneficiary matches between the systems. In addition, local districts did not (1) use all available
resources within the WMS to ensure that beneficiaries were not issued multiple Medicaid
identification numbers, (2) ensure that applicants provided valid SSNs when required, and
(3) maintain documentation to support eligibility determinations.

                                       RECOMMENDATIONS

We recommend that the Health Department:

    •   refund $7,324,452 to the Federal Government;

    •   use all available resources to ensure that no beneficiary is issued multiple Medicaid
        identification numbers or develop one eligibility system that could be used to determine
        whether applicants are enrolled in any medical or public assistance program throughout
        New York State; and

    •   ensure that it complies with certain Federal requirements by requiring local districts to
        ensure that applicants provide valid SSNs when required and to maintain documentation
        to support eligibility determinations, which could have resulted in additional savings of
        $546,296 to the Medicaid program.

                             HEALTH DEPARTMENT COMMENTS

In written comments on our draft report, the Health Department partially concurred with our first
recommendation and generally concurred with our second and third recommendations. The
Health Department stated that cases for which the applicant did not provide a valid SSN or the
case record was not provided represent “eligibility errors” and that Federal laws and regulations
do not allow for the recovery of payments caused by these errors when detected outside of the
State’s Medicaid Eligibility Quality Control program.

The Health Department also disputed a portion of the remaining recommended disallowance
because associated unallowable claims duplicated recoveries that its OMIG was in the process of
making. Specifically, the Health Department and OMIG developed a process to recover
inappropriate capitation payments made to different plans for the same beneficiary under

Medicaid Managed Care Payments for Beneficiaries With Multiple Identification Numbers (A-02-11-01006)   6
different Medicaid identification numbers and have identified duplicate plan payments made for
dates of service between October 1 and December 31, 2009. Upon completion of this first 3-
month period, each successive 1-year period will be reviewed annually. The Health Department
requested that we either adjust our audit universe to exclude all paid claims with a date of service
after September 30, 2009, or remove all sample items that OMIG has identified as part of its
recovery process.

Finally, the Health Department described steps that it has taken or planned to take to ensure that
no beneficiary is issued multiple Medicaid identification numbers.

The Health Department’s comments are included in their entirety as Appendix D.

                       OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the Health Department’s comments, we maintain that our findings are valid.
However, we have revised our recommended recovery to exclude eligibility errors. We also
revised our third recommendation to indicate potential cost savings if the Health Department
ensured that applicants provided valid SSNs and that eligibility determinations were adequately
documented. We did not adjust our audit universe, nor did we remove the sample items that the
Health Department identified as being in the process of being recovered by OMIG. On the basis
of information provided by OMIG, we determined that none of our sample claims had been
recovered. Therefore, we have no assurance that the improper payments we identified will be
refunded in their entirety.




Medicaid Managed Care Payments for Beneficiaries With Multiple Identification Numbers (A-02-11-01006)   7
                     APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our review covered Medicaid managed care payments the Health Department made for 24,298
beneficiary matches totaling $64,243,884 ($32,159,089 Federal share) during the period
January 1, 2005, through April 30, 2010 to different MCOs. 14

We limited our review of the Health Department’s internal controls to those applicable to our
objective. Specifically, we obtained an understanding of the Health Department’s procedures for
assigning Medicaid identification numbers to eligible beneficiaries and for ensuring beneficiaries
have valid SSNs.

We conducted fieldwork at 20 local districts throughout New York State, including New York
City, from April through October 2011.

METHODOLOGY

To accomplish our objective, we:

     •   reviewed applicable Federal laws and regulations and State guidance;

     •   met with Health Department and local district officials to gain an understanding of the
         procedures for assigning Medicaid identification numbers and preventing the assignment
         of multiple Medicaid identification numbers;

     •   ran computer programming applications at the Medicaid Management Information
         System fiscal agent that identified a sampling frame of 24,298 beneficiary matches with
         managed care payments totaling $64.2 million ($32.2 million Federal share) during the
         period January 1, 2005, through April 30, 2010;

     •   selected a stratified random sample of 150 beneficiary matches from the sampling frame;

     •   obtained and reviewed case record documentation from the local district(s) for each
         sample item to determine if a beneficiary was issued multiple Medicaid identification
         numbers and whether the beneficiary had a valid SSN; 15




14
  We excluded managed care payments the Health Department made to the same MCO for the same beneficiary
under different Medicaid identification numbers for the same date of service from our review because these
payments are being reviewed by the New York State OMIG.
15
  The case file contained a Social Security card for the sample beneficiary or the Social Security Administration’s
validation process indicated that the SSN was valid.

Medicaid Managed Care Payments for Beneficiaries Issued Multiple Identification
                                                                                                               8
Numbers (A-02-11-01006)
     •   reviewed encounter data for beneficiaries found to have multiple active Medicaid
         identification numbers to determine which managed care payment was unallowable; 16
         and

     •   estimated the unallowable Federal Medicaid reimbursement paid in the total population
         of 24,298 beneficiary matches.

See Appendix B for the details of our statistical sampling methodology and Appendix C for our
sample results and estimates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




16
  Encounter data are the primary records of medical services provided to beneficiaries enrolled in managed care.
We did not review encounter data when documentation maintained by the local district(s) clearly indicated that the
beneficiary moved from one local district to another or when the local district indicated which Medicaid
identification number was improper.

Medicaid Managed Care Payments for Beneficiaries With Multiple Identification Numbers (A-02-11-01006)                9
                    APPENDIX B: STATISTICAL SAMPLING METHODOLOGY

POPULATION

The population consisted of managed care payments that the Health Department made to
different MCOs for beneficiaries with matching information and for whom more than one
Medicaid identification number was issued (referred to as a beneficiary match) during the period
January 1, 2005, through April 30, 2010.

SAMPLING FRAME

The sampling frame consisted of three Access files containing managed care payments totaling
$64,243,884 ($32,159,089 Federal share) for 24,298 beneficiary matches made during the period
January 1, 2005, through April 30, 2010. The managed care payments for the beneficiary
matches were extracted from the New York State Medicaid Management Information System.

SAMPLE UNIT

The sample unit was a beneficiary match.

SAMPLE DESIGN

We used a stratified random sample, as follows:

    •   Stratum 1: managed care payments totaling $46,999,286 ($23,521,918 Federal share) for
        19,198 beneficiary matches for which the SSN and related beneficiary identifying
        information (i.e., beneficiary’s name, date of birth, and sex) was the same.

    •   Stratum 2: managed care payments totaling $16,455,983 ($8,242,864 Federal share) for
        4,676 beneficiary matches for which the SSN was the same but the related beneficiary
        information was different.

    •   Stratum 3: managed care payments totaling $788,615 ($394,307 Federal share) for 424
        beneficiary matches for which no SSN was available and select beneficiary information
        (i.e., first four characters of the first name, entire last name, date of birth, and sex) was
        the same.




Medicaid Managed Care Payments for Beneficiaries Issued Multiple Identification
                                                                                                  10
Numbers (A-02-11-01006)
SAMPLE SIZE

We selected a sample of 150 beneficiary matches, as follows:

            •   50 beneficiary matches from stratum 1,

            •   50 beneficiary matches from stratum 2, and

            •   50 beneficiary matches from stratum 3.

SOURCE OF THE RANDOM NUMBERS

We generated the random numbers with the Office of Inspector General, Office of Audit
Services (OAS) statistical software.

METHOD OF SELECTING SAMPLE ITEMS

We consecutively numbered the sample units in each of the three strata. After generating 50
random numbers for each stratum, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used the OAS statistical software to calculate our estimates. We used the lower limit of the
90-percent confidence interval to estimate the total amount of unallowable Medicaid managed
care payments that the Health Department made.




Medicaid Managed Care Payments for Beneficiaries With Multiple Identification Numbers (A-02-11-01006)   11
                                APPENDIX C: SAMPLE RESULTS AND ESTIMATES

                                         Multiple Medicaid Identification Numbers
                                                Sample Details and Results

                                                                                      No. of
                                                                                    Beneficiary              Value of
                                     Value of                       Value of       Matches With             Unallowable
                Beneficiary           Frame                          Sample         Unallowable            Managed Care
                Matches in           (Federal    Sample             (Federal       Managed Care              Payments
    Stratum       Frame               Share)      Size               Share)          Payments             (Federal Share)
       1            19,198          $23,521,918      50               $53,999            50                       $25,353
       2              4,676            8,242,864     50                82,894             5                         4,201a
       3                424              394,307     50                50,647            43                        14,859
     Total          24,298          $32,159,089     150              $187,540            98                       $44,413
a
 We did not project the value of unallowable transactions related to stratum 2 because it contained only five errors. We
added the value of the five errors to the lower limit to calculate the total disallowance of $7,324,452.

                           Estimated Value of Unallowable Services (Federal Share)
                            (Limits Calculated for a 90-Percent Confidence Interval)

                                      Point Estimate                         $9,860,602
                                       Lower Limit                           $7,320,251
                                       Upper Limit                          $12,400,954




      Medicaid Managed Care Payments for Beneficiaries With Multiple Identification Numbers (A-02-11-01006)            12
                                              Medicaid Eligibility Errors
                                              Sample Details and Results

                                                                                       No. of
                                     Value of                       Value of         Beneficiary             Value of
                Beneficiary           Frame                          Sample         Matches With             Eligibility
                Matches in           (Federal    Sample             (Federal         Eligibility              Errors
    Stratum       Frame               Share)      Size               Share)            Errors             (Federal Share)
       1            19,198          $23,521,918      50               $53,999              1                             $0b
       2              4,676            8,242,864     50                82,894              6                         5,387
       3                424              394,307     50                50,647            14                          5,008
     Total          24,298          $32,159,089     150              $187,540            21                       $10,395
b
 There are no dollars associated with this error because they were already included in the stratum 1 total of unallowable
managed care payments on the previous page.

                              Estimated Value of Eligibility Errors (Federal Share)
                             (Limits Calculated for a 90-Percent Confidence Interval)

                                       Point Estimate                           $546,296
                                        Lower Limit                            ($40,781)
                                        Upper Limit                           $1,133,372




      Medicaid Managed Care Payments for Beneficiaries With Multiple Identification Numbers (A-02-11-01006)             13
                       APPENDIX D: HEALTH DEPARTMENT COMMENTS 




                                                    NEW YORK
                                                      state deportment of

              Nirav R. Shah, M. D., M.P.H.
              Comn"'ISSiOr\er
                                                    HEALTH 	                                                   Sue Kelly
                                                                                         Ex&cuti't·e D~puty Cornrn1ssioner




                                                                      December 17,2012




             Mr. James P. Edert
             Regional Inspector General for Audit Services
             Department of Health and Human Services - Region II
             Jacob Javitz Federal Building
             26 Federal Plaza
             New York, New York I 0278

                                                                      Ref. No: A-02 -11-01006

             Dear Mr. Edert:

                     Enclosed are the New York State Department ofHealth' s comments on the U.S.
             Department of Health and Human Services, Oftlce of lnspecwr General' s Draft Audit Report
             A-02 -1 1-01 006 on "New York Made Unallowable Medicaid Managed Care Payments for
             Beneficiaries Assigned Multiple Medicaid Identification N umbers."

                      Thank you for the opportunity to comment.

                                                                      Sincerely,


                                                      -~~--·~(
                                                                      Michael J.    N~                \
                                                                      Deputy Comm issioner
                                                                       for Administration

             endosure

             cc: 	    Jason llclgerson
                      .lames C. Cox
                      Diane Christct1sen
                      Stephen Abbott
                      Stephen La Casse
                      Irene Myron
                      John Brooks
                      Ronald Fan·ell
                      Michelle Contreras

                                                     HEALTH. NY.GOV
                                                      fii<cboo:C CQm/NYSOOti 

                                                     r...•nct.<:orn/HealthNYGov 





Medicaid lvfanaged Care Payments for Beneficiaries With Jvmltiple Identification Numbers (A-02-11-01 006)                    14
                               New York State Department of Health 

                                          Comments on the 

                             Department of Health and Human Services 

                                     Office of Inspector General 

                                Draft Audit Report A-02-11-01006 on 

                               New Yot·k Made Unallowable Medicaid 

                              Managed Care Payments for Beneficiaries 

                         Assigned Multiple Medicaid Identification Numbers 


            The fo llowing are the New York State Department of Health's (Department) C()mments in
            response to the Department ofHealth and Human Services, Office of Inspector General (OlG)
            Draft Audit Report A-02-11-01 006 on "New York Made Unallowable Medicaid Managed Care
            Payments for Beneficiaries Assigned Multiple Medicaid Identification Numbers."

            Reco mmenda ti on #1:

            The Department of Health should refund $8,173,798 to the Federal Government.

            R esponse # J:

            The OJO audit sample consists of !50 beneficiary matches with fede ra l share payments totaling
            $187,540. OIG found that 107 of the matches in the sample had unallowab le managed care
            payments total ing $54,808, which oro extrapolated across the claims universe to calculate the
            $8,173,798 recommended refund amount.

            OJG disallowed a total of 16 cases because the appl icant did not provide a valid Social Security
            Number (SSN) and disallowed another 5 cases because eligibility case records were not provided
            tO oro for review. However, these 21 cases represent eligibility etTors, not claim processing
            errors, and Federal laws and regulations do not allow for the recovery or disallowance of
            payments caused by eligibility errors that are detected outside the State's Medicaid Eligibility
            Quality Control (MEQC) program . Such payments are only reco verable when identified under
            the traditional MEQC review process because recovery and disallowance authority for such etTors
            onl y exists in MEQC statute and regulations. Traditional MEQC statute is found in section
            l903(u) of the Social Security A~,;t and the corresponding regulations arc found at 42 CFR
            §43 1.800 - 43 1.865 ,

            In ac~,;ordancc with 42 CF R § 43 1.1002, subpart Q, Requirements for Estimating Improper
            Payments in Medicaid and SCRIP, "States must return to CMS the Federal share of overpayments
            based on medica l and processing eJTors in accordance wiU1 section 1903(d)(2) of the Act and
            related regulations at part 433, subpart F of this chapter. Payments based on erroneous Medicaid
            eligibility determinations are add ressed under section I 903(u) of the Act and related regulations at
            part 43 1, subpart P of this chapter.'' OIG is aware of t!J.is and has stated i ~in previous audit
            repurts. including on page ii of the Executi ve Summary of Report A-02-05-0 1028 (see the lat>t
            sentence under the Su mmary of Findings heading). Additionally, the Department is in receipt of
            CMS correspondence confirming this inf01mation, which it will make avai lab le to OIG.




Medicaid lvfanaged Care Payments for Beneficiaries With Jvmltiple Identification Numbers (A-02-11-01 006)            15
            The Department additionally disputes a portion of the balance ofOIO's audit sample
            disallowances because they duplicate recoveries for which the Office of the Medicaid Inspector
            General (OMIO) is already in the process of recovering. The 010 audit scope included Medicaid
            managed care payments with dates of payment of January I, 2005 through April 30, 2010, and
            010 was informed at the beginning ofthe audit that a partial recovery overlap cou.ld occur in
            conjunction with recovery activities undertaken by the OMIG.

           Prior to the initiation of the oro audit, the Department and the OMIO were developing a process
           to recover inappropriate capitation payments made to two different plans for the same enrollee
           when the enrollee had more than one Client Identification Number (CIN). The process included
           making a change to the Medicaid managed care contract which would permit the Department to
           pursue recoveries of monthly capitation payments in these instances for dates of service beginning
           with and subsequent to October I, 2009. The process utilizes plan reported encounter data to
           determine from which plan to make the recovery. Since a plan could potentially submit encounter
           data for up to two years following the service date, the actual recovery process was not initiated
           until after the calendar year ending 20 II.

           The Department and the OMIO have since initiated this new recovery process and have identified
           those duplicate plan payments whicli were paid tor dates of service between October I, 2009 and
           December 31, 2009. Upon completion of the first three month period, each successive one year
           period will be completed on an annual basis. Therefore, if the oro audit was to sample and
           recover payments with dates ofservice from October 1, 2009 through April 30, 20 I 0, while the
           Department and OMIO continue with the current recovery process for these targeted claims, the
           State would be repaying CMS twice for these inappropriate claims. The Department recovery
           will require the plans to submit claim voids or cash recoveries which will result in the repayment
           ofthe federal share through the routine Medicaid claims reimbursement process.

           OIG is requested to either adjust the audit universe period to exclude all paid claims with a
           service date after September 30, 2009, or to remove from the OIG audit sample the disallowed
           claims that are part of the OMIG's recovery. If the OIO chooses to remove the duplicate
           Department recoveries instead ofrevising the audit universe review period, the OMIO can
           provide a summary report identifying the adjustments to the 010 audit sample disallowances. If
           either of the adjustments is not made to the audit, then a reimbursement method would need to be
           established by which CMS could return the duplicate recoveries made by the OMIO to the
           Department.

           The multiple CIN(s) in the above noted file have already been identified by the OMIO and are
           currently under review by NYC Human Resources Administration (HRA). Once HRA completes
           its review. the OMlG wiJI sort the recoverable claims by managed care plan, and each plan will
           receive an audit report identifying the inappropriate payments, along with a request f<>r
           repayment. One of the OrO sampled cases (Sl -08) is included in the OMIO disputed recoveries,
           but is not included in the current HRA recovery project. Ilowcver, that case would be part of the
           Department's recovery project for the next recovery period (calendar year 20 I 0).




                                                          2




Medicaid Managed CCJYe Payments for Beneficiaries With lv!Ultiple Identification Numbers (A-02-11-01006)        16
             Recomm end at ion #2:

             The Department of Health should usc all available resources to ensure that no beneficiary is
             issued multiple Medicaid identification numbers or develop one eligibility system that could be
             used to determine whether applicants are enrolled in any medical or public assistance program
             throughout ew York State.

             Response #2:

             The Department will continue to provide guidance to all local districts on issues relevant to
             multiple CIN 's, including the proper usage of the upstate and downstate Welfare Mnnagement
             System (WMS) and cMcdNY. The Department will issue a General Information System (GIS)
             communicati on to all local districts this month re minding tJ1em of the importance of avoiding
             multiple CJ sand the capabilities oftJ1c WMS cross-county inqui ry screens to identify
             individuals that already have a CIN even when aSSN is not provided. Additionally, the selection
             and assignment of CIN's will also be incorporated into refresher and new worker training sessions
             once a contract is in place.

            Also. subsequent to the time period of this audit, certain initiatives were put in place to enhance
            the Departmen t's abil ity to reco ver managed care capitation payments for members with multiple
            CIN's. Section 3.6 of the Medicaid Managed Care (MMC)/Fami ly Health Plus (FHPius)!HIV
            Special Needs Plan Model Contract states" ... the SDOH always has the rig htll) recover duplicate
            MMC or Fl fPiu s premiums paid for persons enro ll ed in the MMC or FHPius program under more
            than one CIN whether or not the Contractor has made payments to providers."

             Recommendation #3:

            The Department of I Iealth should ensure that it complies with certain Federal requirements by
            requiring local departments ofsocial services to ensure that applicants provide aSS when
            required and to maintain documentation to support eligibility detcnninations.

             Response #3:

            The Department disagrees 'vi th the implication that it is not compliant with certain Federal
            requirements, and asserts that it maimajns compliance wi th the Federa l requi rements. The
            Department will continue to require that all local districts obtain from appropriate applicants
            either their SSN or proof that one was applied for, and to also maintain case record intormation to
            support eligibili ty determinations.

            The GIS communication noted above will include a reminder to local districts to obtajn the SS
            from appropriate applicants. and the selection and assignment ofCIN's will be incorporated into
            refresher and new worker training sessions once a contract is in place. Furthermore. in letters
            dated January 28. 20 l 0 and March 20, 201 2, local districts were reminded of the requirement to
            maintai n the case record intormat ion used to support applicants' eligibil ity.




                                                             3




lvf£dicai.d Managed Care Payments for Beneficiaries With lv.mltiple IdentificaJion Numbers (A-02-11-01 006)       17
